       l'siR. V1Ctr.#_                                                                                                                1
_~".,.,.        ~                                                                                        Office of Inspector Genera
-          ~                 DEPARTMENT OF HEALTH & HUMAN SERVICES                                       Office of Audit Services

{"+"+~~E - AR-
             2 5 2009
                     - - - - ­                                                                           Region Vll
                                                                                                         601 East 12lh Street
                                                                                                         Room 429
                                                                                                         Kansas City, Missouri 64106

                         Report Number: A-07-08-00283

                         Mr. Mark Stimpson
                         Vice President Medicare Northwest
                         2890 East Cottonwood Parkway
                         P.O. Box 30270
                         Salt Lake City, Utah 84130-0270

                         Dear Mr. Stimpson:

                         Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
                         General (OIG), final report entitled "Review of the Termination Claim for Postretirement Benefit
                         Costs Made by The Regence Group for the Oregon Segment." We will forward a copy of this
                         report to the HHS action official noted on the following page for review and any action deemed
                         necessary.

                         The HHS action official will make final determination as to actions taken on all matters reported.
                         We request that you respond to this official within 30 days from the date of this letter. Your
                         response should present any comments or additional information that you believe may have a
                         bearing on the final determination.

                         Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are made
                         available to the public to the extent that information in the report is not subject to exemptions in
                         the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

                         If you have any questions or comments about this report, please do not hesitate to call me at
                         (816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21 or
                         through e-mail at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-08-00283
                         in all correspondence.

                                                                               Sincerely,



                                                                               Patrie        ey
                                                                               Regional Inspector General
                                                                                for Audit Services


                         Enclosure
Page 2 – Mr. Mark Stimpson


Direct Reply to HHS Action Official:

Mr. Timothy Hill, Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, Maryland 21244-1850
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




REVIEW OF THE TERMINATION
CLAIM FOR POSTRETIREMENT
BENEFIT COSTS MADE BY THE
 REGENCE GROUP FOR THE
     OREGON SEGMENT




                    Daniel R. Levinson
                     Inspector General

                       March 2009
                      A-07-08-00283
                    Office of Inspector General
                                        http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY

BACKGROUND

The Regence Group (Regence) was formed on January 1, 1997, with the merger of Blue Cross
Blue Shield of Oregon (Oregon), King County Medical Blue Shield, Pierce County Medical
Bureau, and Medical Service Bureau of Idaho.

After the formation of Regence, it continued to administer the Oregon Medicare Part A
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS) until the contractual relationship was terminated effective November 30, 2005.

Prior to the formation of Regence, Oregon had a postretirement benefit (PRB) plan. Oregon
established a Voluntary Employee Benefit Association (VEBA) trust in 1992 for the PRB plan
and claimed PRB costs based on accrual accounting. Regence continued Oregon’s established
practice of funding the VEBA trust and claiming accrual costs until the contract termination.
After the contract termination, Regence established an additional VEBA trust into which it
deposited $452,106 for the PRB costs represented in the termination claim.

CMS reimburses a portion of its contractors’ annual PRB costs. In claiming PRB costs,
contractors must follow cost reimbursement principles contained in the Federal Acquisition
Regulation (FAR) and applicable Cost Accounting Standards as required by their Medicare
contracts.

OBJECTIVE

Our objective was to determine whether the PRB termination claim submitted by Regence for the
Oregon segment was allowable for Medicare reimbursement.

SUMMARY OF FINDING

Regence’s entire termination claim of $452,106 for the Oregon PRB costs was unallowable for
Medicare reimbursement. The termination claim represented an unallowable accounting method
with immediate recognition of the unamortized transition obligation, prior service costs, and
gains and losses. None of these costs are allowable in accordance with the FAR and Statement
of Financial Accounting Standards 106, and therefore the costs are unallowable for Medicare
reimbursement.

RECOMMENDATION

We recommend that Regence withdraw its PRB termination claim of $452,106.




                                               i
AUDITEE COMMENTS

In written comments on our draft report, Regence did not concur with our recommendation.
Regence disagreed with the termination claim amount and submitted a revised claim, and it
disagreed with the applicability of some of the criteria we used. Regence’s comments are
included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Regence’s comments, we changed the amount of the PRB termination claim in
our finding and recommendation to reflect the revised termination claim submitted by Regence.
Our finding and recommendation, as revised, are valid.




                                              ii
                                                  TABLE OF CONTENTS

INTRODUCTION......................................................................................................................... 1

          BACKGROUND ................................................................................................................ 1
              Medicare ................................................................................................................. 1
              Federal Requirements ............................................................................................. 1

          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................. 2
               Objective ................................................................................................................. 2
               Scope....................................................................................................................... 2
               Methodology ........................................................................................................... 2

FINDING AND RECOMMENDATION.................................................................................... 3

          UNALLOWABLE TERMINATION CLAIM ................................................................... 3

          RECOMMENDATION ...................................................................................................... 4

          AUDITEE COMMENTS.....................................................................................................4

          OFFICE OF INSPECTOR GENERAL RESPONSE ..........................................................4

APPENDIX

          AUDITEE COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Medicare

The Regence Group (Regence) was formed on January 1, 1997, with the merger of Blue Cross
Blue Shield of Oregon (Oregon), King County Medical Blue Shield, Pierce County Medical
Bureau, and Medical Service Bureau of Idaho.

After the formation of Regence, it continued to administer the Oregon Medicare Part A
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS) until the contractual relationship was terminated effective November 30, 2005.

Prior to the formation of Regence, Oregon had a postretirement benefit (PRB) plan. Oregon
established a Voluntary Employee Benefit Association (VEBA) trust in 1992 for the PRB plan
and claimed PRB costs based on accrual accounting. Oregon determined an annual accrual
amount for the plan as a whole and then allocated to cost objectives, including the Medicare
contract(s). Regence continued Oregon’s established practice of funding the VEBA trust and
claiming accrual costs until the contract termination. After the contract termination, Regence
established an additional VEBA trust into which it deposited $452,106 for the PRB costs
represented in the termination claim.

CMS reimburses a portion of its contractors’ annual PRB costs. In claiming PRB costs,
contractors must follow cost reimbursement principles contained in the Federal Acquisition
Regulation (FAR) and applicable Cost Accounting Standards as required by their Medicare
contracts.

Federal Requirements

The FAR 31.205-6(o) sets forth the allowability requirements and applicable methods of
accounting for PRB costs under a Government contract. PRB costs may include, but are not
limited to, postretirement health care; life insurance provided outside a pension plan; and other
welfare benefits such as tuition assistance, day care, legal services, and housing subsidies
provided after retirement. PRBs do not cover retirement income and ancillary benefits, such as
life insurance, that pension plans pay following employees’ retirement.

In addition, the FAR 31.205-6(o) requires contractors to choose one of three accounting practices
(pay-as-you-go, accrual accounting, or terminal funding) for measuring and assigning PRB costs
to accounting periods. The Medicare contract, Appendix B, section II(A), requires that costs be
estimated (budgeted), accumulated, and reported on a consistent basis.

For Government contract purposes, when a contractor elects to use accrual accounting to claim
PRB costs the FAR requires the accrual to be funded and determined in accordance with
generally accepted accounting principles. The Statement of Financial Accounting Standards




                                                1
(SFAS) 106 governs how contractors report in their financial statements the accrued liability for
PRBs for current and retired employees; SFAS 106 also sets forth specific guidance on the
accrual methodology to be used.

The FAR 31.205-6(o)(2)(iii)(A) constrains SFAS by stating that the transition obligation that is
in excess of the amount assignable under the delayed recognition methodology described in
paragraphs 112 and 113 of the SFAS 106 is unallowable. The SFAS 106, paragraph 112, states:

        If delayed recognition is elected, the transition obligation or asset shall be
        amortized on a straight-line basis over the average remaining service period of
        active plan participants, except that (a) if the average remaining service period is
        less than 20 years, the employer may elect to use a 20-year period, and (b) if all or
        almost all of the plan participants are inactive, the employer shall use the average
        remaining life expectancy period of those plan participants.

SFAS generally provides for amortization of prior service costs (changes in the accrued liability)
and gains and losses. It allows for accelerated recognition of gains and losses in accrued PRB
costs only in accordance with the employer’s established accounting practice, which must be
consistently applied and disclosed.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the PRB termination claim submitted by Regence for the
Oregon segment was allowable for Medicare reimbursement.

Scope

At the request of CMS, we audited the PRB termination claim of $452,106 submitted by
Regence for the Oregon Medicare Part A contracts’ PRB costs. Achieving our objective did not
require that we review Regence’s internal control structure. However, we reviewed the internal
controls related to the PRB termination claim to determine whether the termination claim was
allowable in accordance with the FAR and the Medicare contracts.

We performed the audit work in the Region VII field office located in Jefferson City, Missouri.

Methodology

In performing our review, we used information presented in Regence’s Termination Cost
Voucher, which included support provided by Regence’s consulting actuaries. We evaluated
Regence’s PRB claim in relation to applicable laws and regulations to determine whether
Regence complied with regulatory requirements.




                                                 2
We performed this review in conjunction with our audit of the PRB costs claimed for Medicare
reimbursement for the Oregon PRB costs (A-07-08-00282). The PRB costs allowable for
Medicare reimbursement from fiscal year 1992 through the contract termination for the Oregon
PRB were determined during that review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our finding and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                             FINDING AND RECOMMENDATION

UNALLOWABLE TERMINATION CLAIM

Regence’s entire termination claim of $452,106 for the Oregon PRB costs was unallowable for
Medicare reimbursement. The termination claim represented an unallowable accounting method
with immediate recognition of the unamortized transition obligation, prior service costs, and
gains and losses. None of these costs are allowable in accordance with the FAR and SFAS 106,
and therefore the costs are unallowable for Medicare reimbursement.

Regence’s contractual relationship under Medicare was terminated on November 30, 2005. Prior
to terminating its Medicare contract, Regence’s normal practice for Government contracting
purposes was to claim PRB costs using accrual accounting with recognition of the transition
obligation, prior service costs, and gains and losses on an amortized basis. Using this
methodology, Regence was reimbursed for funded accrued PRB costs totaling $580,734 incurred
through the contract termination date. 1 However, Regence claimed an additional $452,106 of
PRB costs which, contrary to Federal requirements, represented an immediate recognition of the
unamortized transition obligation, prior service costs, and gains and losses.

The FAR does not allow for the immediate recognition of the transition obligation. Furthermore,
the FAR requires that the accrual costs be calculated in accordance with generally accepted
accounting principles (SFAS 106 for PRB costs). SFAS 106 requires that a systematic method
of amortization be applied on a consistent basis. Regence’s established amortization method was
to amortize the gains and losses and prior service costs over the average future service. As a
result, Regence’s change to an immediate recognition of the unamortized transition obligation,
prior service costs, and gains and losses was unallowable.

Therefore, Regence claimed reimbursement for costs that were not in compliance with the FAR
and SFAS 106.




1
 “Review of Postretirement Benefit Costs Claimed for Medicare Reimbursement by The Regence Group – Oregon
for Fiscal Years 1992 Through 2005” (A-7-08-00282), November 20, 2008.


                                                    3
RECOMMENDATION

We recommend that Regence withdraw its PRB termination claim of $452,106.

AUDITEE COMMENTS

In written comments on our draft report, Regence did not concur with our recommendation.
Regence disagreed with the termination claim amount and submitted a revised claim, and it
disagreed with the applicability of some of the criteria we used.

A summary of Regence’s comments follows:

   •   Regence did not agree with the amount of PRB termination costs that, according to our
       draft report, Regence had submitted for the Oregon segment. Regence stated that our
       draft report had relied on an estimated amount provided by Regence’s actuarial
       consulting firm “in a letter dated November 14, 2005.” After the termination date of the
       Medicare contract, Regence’s actuarial consulting firm “recalculated the termination
       liability and updated their estimate in 2006 based on actual termination data.”
       Accordingly, the actual amount claimed was $452,106, not $113,831 as stated in our
       draft report.

   •   Regence did not agree with the application of the FAR requirements in regard to the
       transition obligation: “. . . the purpose of the FAR certainly was not to prevent
       contractors from ever receiving reimbursement of the full transition obligation . . .”
       Regence further indicated that it was seeking reimbursement for the remaining
       unamortized transition obligation as a segment closing adjustment. Regence said that
       “This type of segment-closing adjustment is also consistent with and warranted under the
       principles of Cost Accounting Standards 412, 413, and 416.”

   •   Regence also stated that “. . . Regence’s funded PRB costs should be reimbursed pursuant
       to FAR 31.205-42(b), because these are costs that cannot be discontinued immediately
       after the effective date of contract termination.”

Regence’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Regence’s comments, we changed the amount of the PRB termination claim in
our finding and recommendation to reflect the revised termination claim submitted by Regence.
Our finding and recommendation, as revised, are valid.

With respect to Regence’s more specific comments:

   •   Regence presented to us the termination voucher dated April 26, 2006, as the PRB
       termination claim submitted to CMS. Regence did not provide us with the revised
       termination voucher, nor were we aware of this revised termination voucher until we


                                               4
    received Regence’s comments on our draft report. After receiving Regence’s comments,
    we obtained the additional documentation from Regence regarding the revision in the
    PRB termination claim amount. We determined that Regence submitted a revised
    termination claim on August 6, 2008, which included the revised PRB termination claim
    amount of $452,106. We have revised our finding and recommendation to reflect this
    change.

•   Regence stated that it did not agree with the application of the FAR in regard to treatment
    of the transition obligation. FAR 31.205-6(o)(2)(iii)(A), which addresses the allowability
    of the transition obligation, requires that the transition obligation be amortized over a
    straight line basis. Regence elected to amortize the transition obligation over a 20 year
    period. Furthermore, Regence stated that CAS 412, 413, and 416 allow for a segment
    closing of PRB costs. We agree that CAS 412 and 413 contain a provision to compute
    the difference between the actuarial liability for the segment and the market value of the
    assets allocated to the segment as a result of a segment closing; however, CAS 412 and
    413 apply specifically to pension plans. The Regence PRB plan is not a pension plan but
    rather a retiree insurance program which is governed by CAS 416. CAS 416 does not
    have a provision for this type of an adjustment if a segment ends. Instead, it requires that
    the cost of the retiree insurance program be ratably spread over the average future years
    of service of the active employees, but does not include any immediate recognition
    provision.

•   Regence also stated that the PRB costs could not be discontinued immediately; therefore,
    it should be reimbursed for those termination costs. However, the termination clause
    within Regence’s PRB plan document states, “The Company intends this Plan to be
    permanent, but may terminate this Plan or any component plan at any time.” Therefore,
    Regence could terminate the plan at its discretion with no liability due to the employees.




                                             5
APPENDIX
APPENDIX
 Page 1 of 9
APPENDIX
 Page 2 of 9
APPENDIX
 Page 3 of 9
APPENDIX
 Page 4 of 9
APPENDIX
 Page 5 of 9
APPENDIX
 Page 6 of 9
APPENDIX
 Page 7 of 9
APPENDIX
 Page 8 of 9
APPENDIX
 Page 9 of 9
